<html>
<title> - THE AFGHAN ELECTIONS: WHO LOST WHAT?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                  THE AFGHAN ELECTIONS: WHO LOST WHAT?

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 1, 2009

                               __________

                           Serial No. 111-61

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
 52-641PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                  GARY L. ACKERMAN, New York, Chairman
RUSS CARNAHAN, Missouri              DAN BURTON, Indiana
MICHAEL E. McMAHON, New York         JOE WILSON, South Carolina
SHEILA JACKSON LEE, Texas            J. GRESHAM BARRETT, South Carolina
SHELLEY BERKLEY, Nevada              JEFF FORTENBERRY, Nebraska
JOSEPH CROWLEY, New York             MICHAEL T. McCAUL, Texas
MIKE ROSS, Arkansas                  BOB INGLIS, South Carolina
JIM COSTA, California                GUS BILIRAKIS, Florida
KEITH ELLISON, Minnesota             DANA ROHRABACHER, California
RON KLEIN, Florida                   EDWARD R. ROYCE, California
BRAD SHERMAN, California
ROBERT WEXLER, Florida
ELIOT L. ENGEL, New York
GERALD E. CONNOLLY, Virginia
GENE GREEN, Texas
              Howard Diamond, Subcommittee Staff Director
           Mark Walker, Republican Professional Staff Member
                      Dalis Adler, Staff Associate






                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Glenn Cowan, Co-Founder & Principal, Democracy International, 
  Inc............................................................     6
J. Alexander Thier, J.D., Director for Afghanistan and Pakistan, 
  United States Institute of Peace...............................    13
Peter M. Manikas, J.D., Senior Associate & Regional Director, 
  Asia Programs, The National Democratic Institute...............    22
C. Christine Fair, Ph.D., Assistant Professor, Security Studies 
  Program, Edmund A. Walsh School of Foreign Service, Georgetown 
  University.....................................................    28
The Honorable Lorne W. Craner, President, International 
  Republican Institute (Former Assistant Secretary of State for 
  Democracy, Human Rights and Labor).............................    49

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Gary L. Ackerman, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the Middle 
  East and South Asia: Prepared statement........................     3
Mr. Glenn Cowan: Prepared statement..............................     9
J. Alexander Thier, J.D.: Prepared statement.....................    15
Peter M. Manikas, J.D.: Prepared statement.......................    24
C. Christine Fair, Ph.D.: Prepared statement.....................    31
The Honorable Lorne W. Craner: Prepared statement................    51

                                APPENDIX

Hearing notice...................................................    80
Hearing minutes..................................................    81
The Honorable Gene Green, a Representative in Congress from the 
  State of Texas: Prepared statement.............................    82
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the State of Virginia: Prepared statement.................    83
The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California: Prepared statement....................    85

 
                  THE AFGHAN ELECTIONS: WHO LOST WHAT?

                              ----------                              


                       THURSDAY, OCTOBER 1, 2009

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:10 a.m. in 
room 2172, Rayburn House Office Building, Hon. Gary L. Ackerman 
(chairman of the subcommittee) presiding.
    Mr. Ackerman. The subcommittee will come to order. Today 
because of the size of the panel, I suggest that myself and the 
ranking or acting ranking minority member make opening 
statements if we could, and then proceed directly to the panel.
    Or if anyone would really care to make an opening 
statement, we will accommodate that as well.
    Mr. Green. I would like to make an opening statement.
    Mr. Ackerman. No problem. I would like to start with a 
somewhat rickety old joke. A politician, a minister, and an 
economist are stranded on a deserted island and they fall into 
a 40-foot steep, steep pit, with nothing to drink or eat. ``How 
do we get out of this?'' they ask. ``Let us make a lot of noise 
and someone will hear us,'' the politician says. That is not 
going to work. The minister simply says, ``Let us pray.'' The 
other two question whether or not that is going to work. They 
turn to the economist, and they say, ``Well, what is your 
plan?'' and he says, ``It's easy. First, let us assume a 50-
foot ladder.'' Well, some days later the minister and the 
politician starve to death, and the economist, I fear, was the 
only soul eventually rescued from that island. And sometime in 
2002, he was put in charge of American strategy for 
Afghanistan.
    I have this suspicion because our strategy there to date 
could be summarized as, Let us assume an effective Afghan 
Government.
    There is, of course, no such thing. Yes, Afghanistan has a 
President. Yes, there are ministers and ministries. Yes, there 
are security forces. But to confuse those accessories of 
governance with an actual, capable effective government is to 
confuse Pinocchio with a real, live little boy. They might look 
alike, but the similarities stop there.
    The Afghan Government, after 8 years of international 
sponsorship, is a disaster. Its writ extends only as far as 
foreign troops can carry it. Its policemen are mostly thieves. 
Its troops still cannot provide security to its people.
    Its ministries are mostly empty, and the ones that are 
staffed often focus chiefly on graft. Not fighting it, but 
pursuing it. Much of its decision-making is non-deliberative, 
non-transparent, and mostly ineffective, or not intended to 
benefit the public at large.
    What was crafted in Bonn in 2002 as a grand bargain of 
governance has fallen apart. The people of Afghanistan, who 
have endured 30 years of warfare, salted with heavy doses of 
drought and misfortune, and are thoroughly exhausted, but are 
still not supporters of the Taliban.
    But neither are they fans of the system that we and our 
allies have been propping up. There is no strong center. There 
are few strong governors. There is almost no effective 
representation. There is little law and less justice.
    Afghans are not only living in something akin to anarchy, 
but in a kind of conflict-saturated anarchy, and all the while, 
they hear of the billions--$38 billion from the United States 
alone--that is being poured into their desolate and desperate 
country.
    They must wonder, as I do, where has all the money gone? 
Notwithstanding the near complete absence of tangible or 
meaningful signs of success, or security, or development, we 
are not in year one of this conflict. We are in year eight.
    Much as I wish the Obama administration could have gotten a 
fresh start, there is in fact nothing fresh about our struggle 
in Afghanistan. Following the defeat of the Taliban in 2002, 
our efforts were underfunded, undermanned, under-thought, and 
underappreciated.
    And well before President Obama even ran for the Democratic 
Party's nomination, the situation in Afghanistan was already 
moving sharply in the wrong direction. The recent elections 
there have only served to bring the rot and decay into public 
view. Not surprisingly many here are feeling a bit nauseated.
    The August elections were, in the words of current senior 
United States officials, intended to serve as a ``critical step 
toward developing a government that is accountable to its 
citizens.''
    Instead, these elections served as a powerful demonstration 
of how corrupt and awful the Afghan Government really is.
    Congress has hard choices to make in the coming weeks and 
months about this conflict. To many, it strikingly appears 
similar to another conflict that wore on for many years before 
finally being cast off by an American public sick of war, and 
unable to find either a believable strategy for winning it, or 
a convincing rationale for continuing it.
    I would suggest, however, that there are some very 
significant differences between the war in Afghanistan and the 
war in Vietnam. But perhaps that is a subject for a different 
hearing.
    The issue before us today can be thought of in three simple 
questions: With regard to the Afghan elections, (1) what 
happened? (2) what is happening right now? and (3) what are the 
implications of these events?
    To answer these questions, we are very fortunate to have 
with us a superb panel of true experts. Most of them were on 
the ground in Afghanistan during the elections, and can report 
not only what they saw and heard, but more importantly, what it 
might all mean. But first before the panel, we are going to 
hear from Mr. Rohrabacher.
    [The prepared statement of Mr. Ackerman follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, I 
certainly see some familiar faces, and I am very anxious to 
hear the testimony that we are about to receive in this 
committee.
    I would at this point submit for the record a list of 
observations of the last election that are very disturbing. 
Now, Mr. Chairman, if we could submit that for the record at 
this point.
    Mr. Ackerman. Without objection.
    Mr. Rohrabacher. All right. Thank you. And I am going to be 
listening intently from a distance, but yet with focus from a 
distance. It seems clear not only to us here, but also up close 
to the people of Afghanistan, that the recent elections held 
there were fraudulent and dishonest.
    I would think that all of the sacrifice that we have made, 
both in blood and in treasure, that we would expect more, and 
something different than what we got, and what the people of 
Afghanistan got in that election from a regime that we have 
been bolstering so many years, and have, and supposedly have 
influence over.
    So here we are after all these years, and all of this 
money, and all of this sacrifice, and people losing their 
lives, et cetera, we are left with a display of arrogance on 
the part of this regime, and it is a regime that holds power, 
but we supposedly believe in the United States that a regime is 
not a legitimate government unless it represents the consent of 
the governed.
    And the consent of the governed is not what happened in the 
last election in Afghanistan. This government is dependent on 
our largess and our willingness to sacrifice, yes, our young 
military defenders who go there, and who are willing to give 
their lives.
    I think that the corruption and the dishonesty of this last 
election makes a mockery of the sacrifices that have been made 
to defeat radical Islam in their country, and the recent 
elections, I believe, and as I say, were very demonstratably 
dishonest and fraudulent.
    And we will listen very intently to get details from our 
panel today, but Mr. Chairman, I would suggest that there is at 
least one path that we can take, and that is that we should 
insist that our Government insist that the runoff election be 
held in Afghanistan.
    At the very least that would give the Afghan people a 
chance to vote up or down on the Karzai administration, and 
bring up some, at least a new list of characters, who might be 
able to do better with our help.
    So I am calling today on our Government to insist that that 
runoff election occur so that at least the Afghan people can 
choose between Karzai and Abdullah as their choice.
    I have a resolution that I will be submitting today on the 
floor of the House. I am putting it in the hopper today that 
actually makes that United States policy that we should be 
demanding a runoff election.
    And finally let me just say that the corruption that we 
have seen from the Karzai administration in other areas, where 
hundreds of millions of dollars are being made by people within 
that government off the drug trade, et cetera, is a cause for 
dismay and alarm.
    It does not mean that we should give up, but it is 
something that we should take into consideration when we are 
trying to determine whether or not we are going to send any 
more military forces to Afghanistan.
    If Mr. Karzai and his government cannot even conduct a fair 
and free election, then we should have second thoughts about 
even considering sending more troops to Afghanistan. This is 
something that we should all need to think about and discuss.
    I am very pleased that we have a hearing today so we can 
get some advice as to which way to go.
    Mr. Ackerman. Thank you. As previously announced, all 
members will have the ability of placing statements in the 
record, opening statements, if they choose.
    I have looked over the CVs of each of our panelists, and it 
is quite impressive, and would present quite a challenge if I 
read them all today. Rather than the traditional recitation of 
degrees and past employments, all of which I assure everybody 
are very distinguished, I would like to point out that each of 
our witnesses has a singularly important credential for our 
purpose today.
    Each of them was in Afghanistan either just before or 
during the August elections. Glenn Cowan, who is CEO, and co-
founder, and principal, at the Democracy International, 
director of the elections monitoring delegation, and was in 
Afghanistan in July on a survey mission.
    Alex Thier, who is the director for Afghanistan and 
Pakistan at the United States Institute of Peace, and was in 
Afghanistan just before the elections.
    Peter Manikas, senior associate and regional director of 
the Asia Programs, at the National Democratic Institute, was 
one of the leaders of the NDI observer mission.
    Dr. Christine Fair, an assistant professor in the Security 
Studies Program at the Edmund A. Walsh School of Foreign 
Service at Georgetown University, was a long time observer and 
was in Afghanistan for most of August.
    Lorne Craner, who used to come into this room as the 
Assistant Secretary of State for Democracy, Human Rights, and 
Labor, led a 30-person observer mission for the International 
Republican Institute, of which he is the president.
    So with that introduction, let us begin with our first 
witness, Mr. Cowan.

STATEMENT OF MR. GLENN COWAN, CO-FOUNDER & PRINCIPAL, DEMOCRACY 
                      INTERNATIONAL, INC.

    Mr. Cowan. Thank you, Mr. Chairman. I appreciate the 
invitation from yourself and the members of the subcommittee. I 
would like to start by thanking the United States Agency for 
International Development, whose support of international 
election observation has been crucial we think in these 
elections.
    Over the last 30 years the United States has played a vital 
role in observing important international elections, and it has 
been, and I hope that it will continue to be, an important 
element of our support for global democracy.
    That said, it is not the responsibility of the world's 
international election observers to determine the legitimacy of 
an outcome, because that is a political construct really. Our 
job is to independently and objectively report what we observe, 
in the context within which an election has been held.
    International partners have to make judgments based on 
broader diplomatic and geopolitical concerns about the impact 
of these elections, and most importantly, of course, the people 
of the country grant legitimacy based on an internal calculus 
which is generally beyond our understanding.
    That said, the August 20 elections in Afghanistan have yet 
to produce a credible result. On Election Day, our 
organization, Democracy International, fielded more than 60 
international observers throughout the country, and despite a 
partial success on Election Day, we said at the time, and 
cautioned at the time when we spoke with Senators Casey and 
Brown, and Congressman Space, who were members of a codel a 
couple of days after the election, we cautioned that the time 
was not yet there to call this a success process.
    The legitimacy of the process was far from certain. 
Afghanistan's independent election commission still needed to 
tabulate and verify votes, and the election complaints 
commission had to resolve thousands of complaints that they had 
received prior to the election.
    There had been, prior to the election, concerns about 
ballot manipulation. There were hundreds of thousands, if not 
millions, of ID cards that were presumed to be duplicates.
    And I have to say that in the last 40 days since the 
election, significant damage has been done to the credibility 
of the process, and to the Independent Election Commission 
itself.
    The results that they have reported have been done very 
slowly and fitfully. The significant delay and the manipulation 
in the release of the results have created an environment of 
suspicion, and have substantially damaged the IEC and the 
overall election process.
    One of the hopes of the international community, and as 
observers, was as this was the first election to actually be 
led by Afghans that this would be a signal event in their 
history.
    Even with a partially successful Election Day, on balance, 
we have to conclude that at this point, these elections were 
not conducted well at all.
    Before the election, we knew that the IEC had failed to 
produce a useable voter registering. There were reports, and we 
saw evidence as I have said previously, of perhaps millions of 
duplicate voter ID cards on Election Day, and it has become 
apparent that the IEC appointed substantial numbers of local 
staff, who either assisted in or failed to report significant 
Election Day fraud.
    The commission itself has been opaque in its strategy to 
release election returns, and despite repeated assurances, 
failed to screen out potentially fraudulent results with 
qualitative or quantitative evaluations as had been promised.
    This lack of clarity and transparency, and the inability of 
the IEC to produce an acceptable set of election returns have 
led to the extraordinary process of using statistically 
sampling of the suspect polling stations to determine whether 
or not a second round is going to be necessary.
    Even if this unusual auditing approach results in a runoff 
election, it is not at all certain that a runoff conducted in 
October will generate a more credible result than has come from 
the first round.
    The same people will be running it, and there will be no 
time to train further folks. The security situation is going to 
be worse. The number of observers likely will be fewer. We 
think there are some things that can be done if there is a 
second round election, and perhaps it can be somewhat better 
than the first round.
    To begin with, we would recommend that President Karzai 
replace the leadership of the Independent Election Commission. 
He has the power to do that. There is time to do that, and 
there are people who can serve who would be acceptable to both 
Presidential candidates.
    We think that the commission should dismiss those employees 
who worked for them and did not perform as they should. We 
think that there should be investigations, and the beginning of 
some prosecutions of those who so blatantly defrauded this 
process.
    We think, perhaps most importantly, that the Commission 
should be ordered to impound results from any runoff that fail 
the tests established by the Elections Complaints Commission, 
and perhaps naively, we would call on the candidates to tell 
their inherents to stay in line.
    If the candidates have the sense that they can run and win 
an election, they ought to let their folks back off. Let the 
selection take place.
    Even if these steps are taken, we are very concerned that 
we are heading toward a second round that may be no better than 
the first.
    I would be pleased to answer any questions that the 
chairman of the committee might have. Thank you.
    [The prepared statement of Mr. Cowan follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Ackerman. Thank you, Mr. Cowan. Mr. Thier.

STATEMENT OF J. ALEXANDER THIER, J.D., DIRECTOR FOR AFGHANISTAN 
         AND PAKISTAN, UNITED STATES INSTITUTE OF PEACE

    Mr. Thier. Thank you, Mr. Chairman, and ranking member 
Burton. Once again, I am Alex Thier, the director for 
Afghanistan and Pakistan at the United States Institute of 
Peace, and thank you for the opportunity to present my own 
views on the Afghan elections.
    The legitimacy and credibility of the Afghan Government and 
its international backers are the linchpin of a successful 
stabilization strategy in Afghanistan. Victory is not 
guaranteed with improved governance and accountability, but 
without them failure is assured.
    Reversing the current crisis of confidence among the Afghan 
and American people will require the trust, the just and 
transparent resolution of the ongoing election conflict, as 
well as a serious campaign to address the culture of impunity 
that undermines our efforts there.
    We need to put Afghanistan's unresolved election in a 
broader context of the struggle for this country today. The 
election represents a pivotal moment in a pivotal year. Public 
confidence in the political process and the Afghan leadership 
is so important, because I believe that we do know what success 
looks like in Afghanistan.
    Success is that the path offered by the Afghan Government 
in partnership with the international community is more 
attractive, more credible, and more legitimate, than the path 
offered by the insurgents.
    On paper, the government offers a comprehensive array of 
rights. It promises to subordinate the powerful to the rule of 
law. It promises education, health care, and economic 
development, while combating criminality, corruption, and drug 
trafficking.
    These are all things that most every Afghan yearns for, and 
indeed would fight for. The Taliban, on the other hand, offer 
much less in material terms, and their ideology is far more 
extreme than the solidly pragmatic majority of the Afghan 
people.
    But the Afghan Government and its international partners 
have failed to deliver on many of these key issues. Many 
Afghans do not feel secure. The government and the 
international forces are unable to protect the people from the 
Taliban.
    At the same time private militias, drug mafias, and 
criminal gangs act with impunity throughout the country. Many 
of these bad actors are government officials or closely 
associated with those in the government.
    No government that is unable to provide security, and which 
is seen to be corrupt and unjust, will be legitimate in the 
eyes of the population, and I believe that the most dangerous 
direction for Afghanistan, and indeed the United States, is if 
we are seen to be propping up by military force an Afghan 
Government that is no longer legitimate in the eyes of the 
people.
    And I think the narrative of the 2009 election reinforces 
this legitimacy crisis in three important ways. The first is 
that insecurity and apathy gravely depressed turnout on August 
20, which may have been as low as 30 percent, a striking 
contrast to the 70 percent in the first Presidential election 
in 2004.
    During the campaign several figures, whose avarice and 
brutality during the civil war in the 1990s actually 
precipitated the takeover of Afghanistan by the Taliban, were 
brought back into the national political arena to fulfill a 
narrow and cynical agenda.
    And finally massive organized fraud affirmed the worst 
fears that the election would be stolen. The ongoing recount of 
over 3,000 polling stations statistically sampled may encompass 
up to 2 million votes, or 35 percent of the entire total.
    It is possible, for example, that 700,000 votes could be 
invalidated, and yet President Karzai would still win, 
simultaneously delegitimizing the electoral process, and 
ratifying the victory of the candidate in whose name over 80 
percent of the fraud was committed.
    The continued uncertainly and sense of corruption that have 
surrounded the results have injected deeper doubt into the 
minds of Afghan, American, and European populations, about our 
objectives in Afghanistan, and the likelihood of achieving 
them.
    So let me briefly go to two recommendations. The first is a 
way forward on resolving the election. The ongoing uncertainty 
about the outcome of the election has created turmoil, but also 
presents some opportunity.
    It is very much worth noting that the existence of Afghan 
civil society organizations, and the excellent work of the 
electoral complaints commission, are a welcome presence and 
change from previous elections there.
    The current process of investigations and recounts has the 
potential to undo some of the harm of the electoral process, 
and may serve to demonstrate in the end that the powerful can 
in fact be subordinated to the law.
    But I agree as Representative Rohrabacher said that a 
runoff election may ultimately be the only way to restore the 
legitimacy of the democratic process at this point, and I am 
happy to go into more detail about that.
    On a broader level the United States must act aggressively 
with its Afghan partners in the lead to break the cycle of 
impunity and corruption that is dragging down all sides, and 
providing a hospitable environment for the insurgency.
    I believe a few clear steps need to be taken after the 
election is resolved to set a clear tone for the next Afghan 
Government, and I will just say briefly two points. A 
demonstration of Afghan leadership must be accompanied by the 
empowerment of an anti-corruption and serious crimes task 
force, independent of the government agencies that it may be 
investigating.
    In the first few months, there must be high profile cases 
against people associated with the government, the elections 
fraud and other criminality, and they should be highly 
publicized.
    And finally the United States needs to approach this 
mission in Afghanistan with the same vigor as other key 
elements of our counterinsurgency strategy. Thank you.
    [The prepared statement of Mr. Thier follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Ackerman. Thank you. Mr. Manikas.

    STATEMENT OF PETER M. MANIKAS, J.D., SENIOR ASSOCIATE & 
   REGIONAL DIRECTOR, ASIA PROGRAMS, THE NATIONAL DEMOCRATIC 
                           INSTITUTE

    Mr. Manikas. Thank you very much, Mr. Chairman. What I 
would like to do, if I can, is to submit some written testimony 
for the record, and also to submit the full statement of NDI's 
delegation that was in Afghanistan on Election Day, and then 
just briefly summarize the written testimony.
    Mr. Ackerman. We will accept it for the record. You can 
begin.
    Mr. Manikas. Thank you very much. Just briefly to describe 
what we did. We had about 100 people in Afghanistan on Election 
Day, including international and the Afghan observers.
    We faced the same constraints, I think, as every other 
delegation, in that we had limited access to the country 
because of the security situation. Nevertheless, we were able 
to get to 19 of the 34 provinces.
    And also our delegation was supplemented by a team of long 
term observers, including Dr. Fair to my right, that were 
looking at various thematic issues involved in the election, 
such as security, and that was Dr. Fair's area, but also 
women's participation, and I can't remember all the others.
    We also have an ongoing effort to monitor the current 
count, and we have a team of people that remained in Kabul 
watching the recount unfold, and as you all know, in early 
September the ECC declared that there was clear and convincing 
evidence of fraud in a number of polling stations, and ordered 
a recount of polling stations in which there were over 600 
ballots in the ballot boxes, 600 being a key figure because 
that is in excess of the maximum number of estimated voters per 
polling station.
    And polling stations that also had more than 95 percent of 
the ballots cast for one particular candidate, and the ECC 
identified over 3,000 ballot boxes that fall into that 
category, and well over 1 million ballots could be affected.
    Clearly if all of those ballots are excluded from the 
totals in the end it could affect the outcome of the election. 
NDI's own observers as well identified particularly problems in 
Nuristan, Paktia, Helmand, and Badgis, as being places at which 
there was an unusually high turnout, and these are all areas 
that are quite insecure, and therefore quite suspicious.
    Last week, the ECC and the IEC agreed to use a statistical 
sample instead of inspecting every single affected ballot box, 
declaring that this approach would both save time, and if a 
runoff was to be held, it would permit it to be held in a 
timely manner.
    The commissions ordered that all the ballot boxes that are 
a part of the sample be brought to Kabul to help ensure the 
efficiency of the audit process.
    The entire election I think in the view of the delegation 
was shaped by a variety of--it was shaped by the security 
environment that really affected every aspect of the election.
    Because so much of the area was insecure, there was a 
decrease in the number of provincial council candidates taking 
office. Insecurity affected the IEC's ability to recruit 
polling staff in many areas, and as I mentioned, domestic and 
international observers had limited access to much of the 
country.
    In addition to a lot of the problems that I think we are 
seeing unfold now, there were also more systemic problems 
related to the election that were clear I think from the very 
beginning.
    Many date back to the 2004 and 2005 elections in which 
there was a very lax registration process that led to the 
generation of really millions of excess registration cards.
    There were reports of the misuse of State resources and 
proxy voting was permitted in a lot of areas. There were also 
questions raised about the independence of the IEC, whose 
members are entirely appointed by the President.
    Also, the number of women engaged in the political process 
continued to face a lot of barriers to their participation, 
including the repeated threats of violence.
    Having said all of this, I think it is also important to 
recognize though that there were some positive aspects to the 
political process, and it gives a little hope, I think, that 
Afghanistan could have a credible electoral process if some of 
these other problems are remedied.
    In the lead up to the campaign, unlike 2004 and 2005, all 
the candidates were able to campaign throughout the country. 
Mr. Karzai was everywhere, as was Mr. Bashardost, and as was 
Mr. Abdullah.
    There were very few clashes among the supporters of the 
candidates, suggesting that the ethnic divide may not be quite 
as acute as we are often led to believe. Afghans have 
repeatedly said--am I running out of time?
    Mr. Ackerman. If you could just wrap up.
    Mr. Manikas. Okay. Sure. I want to go back to the major 
plan, I guess, that Glenn referred to in regards to the runoff. 
It is going to be very, very difficult, I think, to restore 
credibility to this process, and a runoff may be the only hope 
of doing so.
    I mean, ultimately the security of Afghanistan really 
depends on the legitimacy of the government, and it is very 
difficult to imagine a situation in which there is support 
among the Afghanistan people for a newly elected government 
without a runoff now.
    [The prepared statement of Mr. Manikas follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Ackerman. Thank you. Dr. Fair.

  STATEMENT OF C. CHRISTINE FAIR, PH.D., ASSISTANT PROFESSOR, 
  SECURITY STUDIES PROGRAM, EDMUND A. WALSH SCHOOL OF FOREIGN 
                 SERVICE, GEORGETOWN UNIVERSITY

    Ms. Fair. Thank you, Honorable Chairman Ackerman, and 
distinguished colleagues for the opportunity to contribute to 
this important contemporary foreign policy issue.
    Mr. Ackerman. If you could pull your microphone just a 
little bit closer to you.
    Ms. Fair. I am sorry about that. I have submitted a lengthy 
statement where I detail my observations about the entire 
electoral process, from the registration, to the conduct of the 
election itself.
    I am going to concentrate my written remarks upon the 
impacts of these elections for the insurgency and the United 
States' efforts to secure its supreme national interests in 
Afghanistan.
    What are the obvious implications of the insurgency 
stemming from these elections? In truth, going into the 
elections, there were few outcomes that could have advanced the 
cause of stabilizing Afghanistan politically or otherwise.
    The Karzai government, along with its international 
partners, has done little to advance governance. Yet, 
governance is not simply a bromide. Providing good governance 
is likely a fundamental element of defeating the insurgency.
    Rand studies of how insurgencies end find governments with 
high popularity defeated most of the insurgencies they fought. 
In contrast, unpopular governments lost to insurgents more than 
half of the time.
    Yet, the data suggests that a successful counterinsurgency 
campaign in Afghanistan will require the confidence of the 
citizens in the government. Yet, there is no data that Afghans 
actually have that support.
    In fact, polls conducted by ADC, BDC, among others since 
2005, show a continued downward trajectory in support for their 
government.
    Karzai repeatedly demonstrates a lack of political will to 
deal with the corruption, the trafficking in narcotics, and to 
find some way of providing better governance at all levels of 
the state.
    Despite the large sums of international assistance, many 
programs cannot succeed without a dedicated partner in Kabul, 
and let me offer up one example of the flawed interplay between 
international assistance and the resolve of the government in 
Kabul.
    And I am going to raise the issue of training the Afghan 
National Police. It is a belated priority, but I think we all 
agree that it is indeed a priority now, and it was a 
fundamental issue in securing the election.
    The efforts of training the Afghanistan police has 
certainly been hampered by the constrained international human 
and financial resources. But they have also been constrained by 
the political environment in which these efforts have taken 
place.
    The current program is called the Focus District 
Development Program, or FDD. It was devised to deal with police 
corruption. The program takes all of the police out of the 
district, and it submits them to 8 weeks of training. It then 
returns them to the very districts from which they came.
    The provincial governor stays in place, and the district 
governor stays in place. All the other corrupt notables stay in 
place. So this is akin to dusting off the police officers and 
putting them right back into the same corrupt system from which 
they emerged, and then people wonder why recidivism seems to be 
taking place.
    At a minimum this important international activity should 
be happening in concert with cooperation with Kabul to replace 
those district and provincial level leaders who are found to be 
corrupt, as opposed to simply moving them around and making 
them someone else's problem.
    So the training of the police is a really good example of 
how we cannot succeed unless Kabul does its part. So how can 
the United States secure its interests in the wake of these 
very problematic elections?
    As evidenced by the peering the elections have crystallized 
cleavages in domestic political opinion about the next step 
forward in Afghanistan, with intense discussions surrounding 
the request for additional troops.
    While the debate over scaling up or scaling down troops has 
seized the public's attention, reconfiguring the footprint or 
mission of the United States and international troops alone 
cannot address this problem.
    CUSFA General Stanley McChrystal, in his recent assessment, 
lays out the problem clearly and it is joint. The ISF mission 
faces two principal threats, he says, the first of which is the 
existence of organized and determined insurgent groups.
    The second threat is the crisis of popular confidence that 
spring from the weakness of the Government of Afghanistan. 
Arguably analysts and policymakers focus upon the footprint and 
mission of United States troops, because it is the one thing 
that the United States has the most control over.
    Washington cannot direct its NATO allies' military and 
civilian commitment to Afghanistan. It cannot quickly produce 
Foreign Service Officers, or USAID officers, or other civilian 
capabilities while sustaining quality.
    It cannot quickly reconfigure or improve the way that the 
United States delivers aid, and it apparently has very little 
influence over the government in Kabul to provide better 
governance.
    Thus, if one considers what can be done, as opposed to what 
would be the ideal thing to do, victory in Afghanistan is 
unlikely if winning means establishing a competent, reasonably 
transparent government, capable of providing even limited 
services, and increasingly able to pay for itself.
    In other words, the United States needs a Plan B, and Plan 
B is not simply trying to make Plan A work again. The United 
States needs a contingency plan which defines victory to more 
narrowly address the most critical United States security 
interests.
    If the international community cannot prevail in the 
counterinsurgency campaign again with the Taliban and allied 
fighters due to shortcomings on the international community's 
configuration, or due to the shortcomings in Kabul, Washington 
can secure its preeminent objectives of protecting itself 
against al-Qaeda.
    This involves separating out the counterinsurgency from the 
counterterrorism efforts. The United States and international 
efforts can and should focus its resources in helping the 
Afghans take ownership of the counterinsurgency campaign, while 
the United States reorients and prioritizes its assets and 
resources toward defeating al-Qaeda, which is actually 
localized largely in the Kunar Province.
    And I don't need to tell you that there are probably more 
al-Qaeda operatives in Pakistan than in Afghanistan. Therefore, 
in conclusion, I recommend a reformulation of the question away 
from whether the United States can protect its interests 
without a decisive defeat of the Taliban, toward how can the 
United States secure its interests without such a decisive 
defeat.
    This is the reality of the government in Afghanistan. It is 
not predicated upon the government that we wish we had in 
Afghanistan. Thank you.
    [The prepared statement of Ms. Fair follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Ackerman. Thank you. Mr. Craner.

    STATEMENT OF THE HONORABLE LORNE W. CRANER, PRESIDENT, 
INTERNATIONAL REPUBLICAN INSTITUTE (FORMER ASSISTANT SECRETARY 
        OF STATE FOR DEMOCRACY, HUMAN RIGHTS AND LABOR)

    Mr. Craner. Chairman Ackerman, Congressman Burton, and 
members of the subcommittee, thank you for the invitation to 
testify today. Mr. Chairman, it has become fashionable of late 
to say that people in certain usually poor countries are not 
ready for democracy.
    In Afghanistan, some in government may not be ready for 
democracy, but the people are as they showed during the 
campaign. The pre-election environment was dynamic and 
energetic, with candidates reaching beyond their ethnic 
strongholds in issue rather than personality based campaigns.
    Private media's campaign coverage was very balanced. Most 
striking were the unprecedented first Presidential debates, one 
of which included the head of state. In terms of pre-election 
administration, the Independent Election Commission is to be 
commended for the training of election workers, despite a lack 
of international funding.
    Turnout was not as high as in past elections, but as Gary 
Hart, who co-led NDI's delegation, put it, I do not know of one 
country, including my own, where faced with the threat of death 
for voting the turnout would be 40 percent.
    And Afghans expected that their votes would count. A July 
IRI survey revealed that 92 percent were confident in the IEC, 
and 61 percent believed that the Electoral Complaints 
Commission was doing a good job.
    In other words, Afghan's believe that their investment in 
this election would be rewarded with a legitimate outcome. Over 
100 IRI delegates and domestic observers on Election Day 
monitored more than 250 polling stations.
    I noted above many positive aspects, but issues such as 
fraud and abuse of State resources, many of these issues under 
government control, brought the elections certainly to a lower 
standard than those in 2004 or 2005.
    While IRI noted that the pre-election environment, pre-
election administration, and Election Day voting, we were able 
to observe, still seemed credible. We also stated that much 
attention would be paid to the vote counting and post-election 
adjudication.
    And it is in these two areas that trouble first became 
apparent and persists. As the United States Government 
continues to formulate its policy, I recommend adoption of the 
following principles.
    Number one, legitimacy precedes capacity. Governance is 
critical, but cannot be achieved unless Afghans believe that 
their officials are legitimately elected. Many cite Afghanistan 
as the graveyard of empires, including they intimate the United 
States.
    They forget a crucial difference. As an IRI partner and 
Member of the Afghan Wolesi Jirga said of the 1980 Soviet 
occupation, political puppets placed in office by those outside 
Afghanistan cannot bring the Afghanistan people together. It 
does not matter how many troops are deployed, without 
legitimate leaders the effort will fail.
    Or as two Afghans have told me on separate occasions, you 
are the only invaders we ever loved, because unlike the British 
or Russians, they say, you want what we want for Afghanistan.
    Not honoring Afghan's expectations for a credible election 
means that Afghans will lose trust in their titular leaders and 
in the international community, including the United States. In 
other words, Afghans will conclude that like the British or 
Russian empires, we don't want what they want.
    Number two, a rule of law matters. A legitimate government 
can only come about if due process provisions to adjudicate 
electoral irregularities are followed. These issues have been 
at the root of the dispute involving Peter Galbraith, who was 
dismissed yesterday by the U.N.
    Third, if needed, an interim leader must be selected 
through a transparent mechanism acceptable to the Afghan 
people; and fourth, after the election, we must focus on good 
governance.
    Election of legitimate leaders must be followed by 
addressing the needs of the Afghan people. This is an issue 
that General McChrystal has highlighted as the second component 
as my colleague noted.
    Mr. Chairman, I close my written testimony by offering 
critiques of both the Bush and Obama administrations approaches 
to Afghanistan. In President Bush's case, under-resourcing the 
war and staying too close for too long to an ineffective 
leader, it is important that the Obama administration not 
repeat those two mistakes.
    Others are better qualified than me to address the issue of 
resourcing currently being discussed with the Pentagon, but in 
doing democracy work, I have gotten to know a few things about 
ineffective leaders.
    Early public misgivings by the administration about 
President Karzai's confidence and abilities disappeared in the 
spring when there was an apparent conclusion that he would win 
the election.
    Pre-election polls, however, showed that Karzai was 
substantially less than 50 percent of the vote, and even with 
an apparently large amount of fraud, he was able to gain only 
54 percent provisionally.
    Pre-election polling also showed strong voter interest in a 
joint ticket of Abdullah and Ghani. This is not a question of 
historical interests. According to the September 28, 2009 New 
York Times, even before the results are determined, which might 
lead to a second round of voting, the administration has told 
the government of Karzai that it believes that he will be 
reelected, and is currently attempting to fashion a policy 
based on that perception.
    The Clinton administration in a number of countries, 
Russia, Nicaragua, Slovakia, and Serbia, decided that it was 
legitimate to make its preferences know regarding elections 
that would shape our future policies toward those countries. 
Arguably our stake in Afghanistan is as least as important as 
it was in those countries
    This period of post-election adjudication is an opportunity 
for us to clarify our enduring principles to bring populations 
together under legitimate governments. Whether legitimacy in 
Afghanistan is achieved through a coalition, a runoff election, 
or an alternative outcome, this moment should be seized upon to 
establish a result that we, and more importantly, Afghans, are 
willing to support. Thank you.
    [The prepared statement of Mr. Craner follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Ackerman. Thank you, and I thank our entire panel. 
There seems to be a general consensus on the panel questioning 
the legitimacy of the election, and a sense of direction that 
we have an obligation to try to set things right, or to 
encourage them to set things right, because the government 
under the current cloud is not legitimate.
    I guess my question may be more about us than about 
Afghanistan and their election. If we have that as a moral 
obligation do we have a right to pick and choose where to apply 
our moral obligations?
    There seems to be a more aggravated population, at least 
judging from the street reaction, in Iran, and yet we have not 
insisted or pronounced that that government is not legitimate, 
and should have an election.
    We seem to pick and choose, and we seem to pick and choose, 
I think, based on the ability of pushback of the administration 
in the country that we are talking about. Is it legitimate for 
us to do that?
    Certainly it would be in our interests if we are talking 
about where our interests lie, to see a different result most 
likely in Iran based on the leadership choices that were before 
their public. How do we deal with that?
    And the follow-up question, I guess I would have, and I am 
going to more strictly observe the 5-minute limitation on our 
members, and be less generous with us than we did with the 
panel. So I will be mindful as should the panel.
    And my follow-up question would be if we make that 
determination and insistence, the leverage we have it appears 
is whether or not we send more troops. If we send more troops 
or don't send more troops, based on their reaction to our 
suggestion that the election was not legitimate, who are we 
punishing, us or them?
    And why don't we start in the same order as before. Mr. 
Cowan, and I would like to hear from all five of you. So if we 
could keep the answers succinct it would be great.
    Mr. Cowan. The question is somewhat beyond the writ of the 
international election observation, but I do have some 
experience in these questions having been assigned to CORDS in 
Vietnam in one of our first major efforts to take an 
interagency approach to a counterinsurgency war.
    I don't think that we can walk away from Afghanistan based 
entirely on an illegitimate election. I think the stakes for 
the United States are potentially too high for us to simply 
assert that their government is not legitimate, and we will not 
deal with it.
    Mr. Ackerman. Okay. Let me in the interests of getting 
everybody in, I will pass on an answer to the first question, 
which was probably more philosophical and esoteric, and ask you 
each to comment for \1/2\-minute maybe if there is no runoff, 
and our insistence or suggestion is not adhered, do we send 
troops anyway?
    Mr. Cowan. I think that depends on our views as to whether 
or not those troops can reasonably participate in a fully 
engaged interagency solution in Afghanistan, which means that 
you would have to have complete engagement of the State 
Department, USAID, et cetera.
    Mr. Ackerman. Thank you. Mr. Thier.
    Mr. Thier. I do want to say to your first question that in 
the case of Afghanistan, we are not neutral commentators. What 
we do will be seen as a decision. If we allow the election to 
go forward without a recount, we will seem to have been 
supporting that decision, and so whatever we do bears weight 
ultimately.
    The reason that I believe, and maybe not fully, but the 
likelihood that additional resources are needed in Afghanistan 
is because the crisis today in Afghanistan is not predicated on 
these elections.
    The crisis is predicated on 3 or 4 years of decline, and 
unless we are able to get our arms more effectively around this 
problem of insecurity and injustice, then Afghanistan will 
collapse, and I think that Afghanistan's collapse has very 
grave repercussions for Afghanistan, Pakistan, and the United 
States.
    Mr. Ackerman. It appears that my time has expired. Mr. 
Burton.
    Mr. Burton. You know, I really appreciate, Mr. Chairman, 
the testimony, and I think that Mr. Rohrabacher and I were just 
talking a minute ago, and we think the testimony has been very, 
very good.
    But one of the missing links in this whole issue is having 
a direct testimony from the people in the field. I think that 
General McChrystal needs to be here, and we need to make a 
request as quickly as possible to get him here.
    If time is of the essence, and if we are going to need 
40,000 troops, and if we are going to have to have another 
election over there, we really need to get from the Ambassador 
and the Commanding General as much information as possible.
    No disrespect to those who are here, because I think your 
testimony was very, very good, but I think it is extremely 
important that the Foreign Affairs Committee and the Armed 
Services Committee make a request to have them here as quickly 
as possible.
    Mr. Ackerman. If the gentleman will yield, I believe, Mr. 
Berman has as his intention to invite the General within the 
next 2 weeks.
    Mr. Burton. In the next 2 weeks?
    Mr. Ackerman. Yes.
    Mr. Burton. Well, that's very good. That is very good. I 
really appreciate that, and I think in addition to that, I 
think the Ambassador who is over there in Kabul also ought to 
be here. So I hope that is included in the mix.
    What I would like to ask is--and I don't know that the 
panel should--well, maybe this is just a general question that 
I ought to throw out, and anyone can answer if they want to.
    But in a situation like this--and I don't want to be 
partisan, but I think it is important that when you have 
something that is of such gravity as this issue, is this 
decision, should not the President be very, very engaged, and 
shouldn't he be contacting, or be contacted, by the officers in 
the field, the Commander in the field, more than once since, 
say, 70 days?
    I mean, I know that we were in other conflicts, because of 
the political significance, as well as the military 
significance, the Commanders-in-Chief were in contact on at 
least a biweekly basis with the commanders in the field so we 
could make decisions rapidly if we needed more troops, or 
needed more equipment over there.
    So if somebody wants to answer that question, how 
frequently do you think that the commander in the field should 
be in direct contact with the Commander-in-Chief and the 
Secretary of Defense? Anybody? If you are afraid of that one, I 
will ask another one. Nobody wants to tackle that?
    Mr. Ackerman. They know a mine field when they see one.
    Mr. Burton. I see. Well, let me just say that whoever the 
Commander-in-Chief is, whether it is President Obama, or 
whoever it is, I think on an issue as important as this, Mr. 
Chairman, the President needs to be engaged on a very regular 
basis.
    I am not saying every day, or every week, but on a regular 
basis, he and the Secretary of Defense. And I know that they 
had a meeting the other day, the National Security Council did, 
and they had McChrystal on a teleconference, which I think was 
a step in the right direction, but I hope that they do more of 
that.
    Let me just ask this question. In the short run, and I 
would like to have your opinions on this, if we don't send the 
troops can there be a free and fair election, and is the threat 
of people losing their hands, their fingers, or their lives if 
they go vote, is there a risk that people simply won't come to 
the polls, and that you won't get a true picture of what the 
people want over there?
    And will the 40,000 troops be able to, if we start getting 
them over there rapidly, will that be an encouragement for 
people to vote, and will that stabilize the situation?
    Mr. Craner. Congressman, I think if there is a more stable 
and secure environment, you will see more people voting, but I 
think no matter how many people vote, if the government is not 
committed to having an honest election, you would have a repeat 
of what just happened. And to go back to Mr. Ackerman's second 
question----
    Mr. Burton. Well, before you get to that, let me just ask 
since I only have about 35 seconds here, you know, that is a 
big country, and there is an awful lot of people that are going 
to be needed to watch the election, poll watchers, to make sure 
that this is an honest election.
    Do you think that we can get the number of poll watchers 
there to make sure that there is a free and fair election, 
especially with the Taliban running around threatening people?
    Mr. Craner. Yeah, I do. I think the number that was out 
there this time provided the early reports of early problems 
within a few days of the end of the election. Clearly you would 
need more in the south because that is where the most problems 
occurred, and that is where the greatest insecurity is.
    But certainly with more troops and more observers, you 
would have an even better picture.
    Ms. Fair. Well, I have a somewhat different view. Even 
domestic observers could not get into the most insecure 
districts. They were perhaps in the district capitals, but they 
were not in the countryside, which is where a lot of the 
alleged malfeasance appears to have taken place.
    It is also not just the number of troops. It is what the 
troops are actually doing. We are in an unfortunate situation 
where putting more troops to engage in kinetics, i.e., on an 
enemy focused operation, has really put us in the unfortunate 
situation of killing about as many civilians as the insurgents 
do.
    So that is not a terribly good track record, and the 
Afghans do not blame the insurgents for the civilian 
casualties. They blame us, even the civilian casualties caused 
by the Taliban.
    So we have to think not only about the number of troops, 
but also what those troops will be doing, training versus 
kinetics.
    Mr. Ackerman. Thank you. Mrs. Berkley.
    Ms. Berkley. Thank you, Mr. Chairman. First, let me thank 
each of you for being here. I appreciated the information. I 
was in Afghanistan about 1 year ago, and I remember looking 
down as we were flying in on a military flight, and my 
immediate reaction was this is a hell hole.
    I didn't see--there wasn't a road. There wasn't a stream. 
There wasn't a farm. There wasn't any housing. And I just 
looked down and I was astounded at how barren the landscape 
was.
    And after we arrived and spent time on the military base 
talking to our people, and meeting with Karzai, and our 
Ambassador, I felt that the hell hole extended beyond just the 
geography, and that we were in a world of hurt being there.
    And I was very conflicted at the time. It is 1 year later, 
and I am still conflicted. I am not surprised at the results of 
the election, or the way the election was conducted. It is just 
the tip of the iceberg, and punctuates what I have seen as a 
descent in good governance or any governance over the last few 
years.
    It does not appear to me that Karzai either has the will or 
the interest in leading a government that can be of benefit to 
his people. The corruption is widespread and well known, and I 
do not believe that he has the support of his people.
    Consequently, we saw a great amount of fraud and deceit in 
this past election. I was very interested in Mr. Ackerman's 
question, and I would like to give the rest of my time to the 
panel to answer Mr. Ackerman's question.
    And if I may start with whoever he left off with, I think 
that would be of benefit because that was my question, and I 
think it gets to the very heart of the issue, and I thank you 
again for being here.
    Mr. Ackerman. That would be Mr. Manikas.
    Mr. Manikas. I am sorry, what exactly--could you repeat the 
question?
    Mr. Ackerman. The question went to the issue, do we pick 
and choose which countries that have apparently disingenuous 
elections, that we insist that they have reruns, runoffs, 
redos, recalls, try agains?
    Mr. Manikas. It seems to me that we have a special 
obligation with respect to Afghanistan because of the nature of 
our involvement there, and also because of the promises that we 
have made to the Afghan people, which is what makes I think the 
outcome of this election so important.
    I mean, we told people that we wanted them to participate 
in this electoral process, and they did so at great risk often 
times, and I think that is why it is so important that we let 
this play out and have a runoff if one is required.
    Ms. Fair. To add on to that, we have not been completely 
innocent in the way in which this election has played out. I 
was there in May 2008. It was very apparent that the 
independent director of local governance was really functioning 
as the Karzai re-election campaign. Everyone knew this. USAID 
funded it.
    When Mr. Karzai's brother-in-law, Norzid, decided to stand 
up a 10,000-person militia. ISAC blessed it. So not only is 
there the obligation that people took on great risks to vote, 
it is also that we have been implicit in this process that 
ultimately culminated in this fraudulent election. So I think 
we ultimately have some substantial responsibility to bear in 
this.
    Mr. Craner. The United States has asked for other elections 
to be rerun that were not as bad as this, and I think back to 
Ukraine just before the Orange Revolution. In the example that 
you raised, Iran, certainly they deserve another election.
    Is it intrinsic to what our greatest national interest 
there is, atomic weapons? It is not clear that an election is 
intrinsic. I would make the case in Afghanistan, and I think 
you have heard from this panel, that without legitimate 
governance victory in that war is almost impossible.
    Ms. Berkley. Mr. Chairman, if I can reclaim my last 26 
seconds. My concern is if the United States is seen supporting 
and propping up a corrupt--yet another corrupt and ineffective 
government, we will pay a huge price, and I do not believe the 
Afghan people will reward us for doing this.
    Quite the contrary, they will condemn us and we will never 
be able to reclaim the upper hand in this war against 
terrorism, if that is what we are doing there.
    Mr. Craner. And that is why fixing this election problem is 
really, really important to our mission there.
    Ms. Berkley. Thank you.
    Mr. Ackerman. I would ask unanimous consent that the 
gentlewoman be given 1 extra minute that she would yield to me.
    Ms. Berkley. I will accept the minute, and yield it to you.
    Mr. Ackerman. Thank you. In listening carefully to the 
responses that we just had from a panel that seems to have seen 
this train heading for the crash before Election Day, if we do 
have this obligation to after the fact be critical, and demand 
a redo, are we not guilty of the crime of being accessories 
before the fact by not speaking out and alerting the government 
there, and the rest of the international community, that we 
think a fraud is about to be perpetrated, so that perhaps their 
behavior would change before they commit the crime?
    And I guess it is an opinion rather than a factual question 
that anybody could answer, even if you are not one of the 
experts who were there. So I forego the answer in view of the 
fact that my time is up again. Mr. Rohrabacher.
    Mr. Rohrabacher. Ms. Berkley noted the ruggedness of the 
Afghan territory, and described it as a hellhole, and I guess--
and quite frankly you suggested that you don't know that area 
well. I do.
    And let me suggest that the Afghanistan that counts is not 
the territory, but it is the people, and the people of 
Afghanistan are more rugged than the territory, or they would 
have not succeeded in surviving all of these years.
    Ms. Berkley. I could not agree with you more.
    Mr. Rohrabacher. And that ruggedness and that strength of 
the Afghan people has given them a degree of integrity, 
personal integrity and courage that I have rarely seen in other 
parts of the world where life is much easier.
    The Afghan people, for those of us who know them, have 
earned our respect over and over again for their personal 
integrity and courage, and they should have earned the 
gratitude of the American people over and over again as well 
for the battles that they have fought, and has had direct 
relationship to our own national security, both when they 
defeated the Soviet Army back in the 1980s, which brought about 
the demise of the Soviet Union, which was the greatest threat 
to our own national security.
    And then after 9/11, after we had walked away from them 
after the war with the Soviet occupation forces, they then rose 
up again, and it was the people of Afghanistan, not American 
troops, that dislodged and drove the Taliban out of their 
country.
    We only had 200 American troops in Afghanistan when the 
Taliban were driven out. They were driven out by the Northern 
Alliance, but also a coalition of people of Afghanistan, and 
then we decided to shift our focus and go to Iraq, and again 
left them to sleep in the rubble.
    Ms. Berkley. If that is the case, if I could ask you then 
why do we need to commit another 40,000 troops if the Afghans 
are so self-sufficient?
    Mr. Rohrabacher. Let me just note that you are assuming 
that that is my position, which is wrong. I am the last one to 
answer that question. I would suggest that if we do not have 
and keep faith with the people of Afghanistan directly, rather 
than making deals with a corrupt government, 40,000 more troops 
won't make any difference in Afghanistan.
    We must, and in fact, I would suggest, that the first step 
of regaining the faith of the people of Afghanistan is to 
insist on a runoff election that is not conducted--and this is 
my question--that is not conducted by the Afghan Government 
itself, but conducted by international organizations.
    Is that possible that they could have international 
organizations, rather than the Government of Afghanistan, which 
we all know is so corrupt that they can't be counted on to 
actually conduct the elections, rather than observe the 
elections? Very quickly.
    Mr. Cowan. Thank you, Congressman. Congressman Burton, you 
may remember that we were together members of a Presidential 
observation of the Namibian elections.
    Mr. Burton. Yes, I remember.
    Mr. Cowan. And that was an interesting model, because 
although conducted by the colonial power, the South Africans, 
the United Nations oversaw those elections in every polling 
station in the country.
    That is a model that is possible in Afghanistan, but not 
possible in the near term, and if such an attempt were made, 
there would have to be an interim government appointed, and 
they would likely have to call a Loya Jirga in order to provide 
for such a thing constitutionally, which might be a good 
outcome, but it would take some time to effectuate.
    Mr. Rohrabacher. And does the panel agree with that 
assessment?
    Mr. Thier. Let me just say that I do think that the 
Independent Election Commission, were it truly independent, 
together with the Electoral Complaints Commission, which is an 
international Afghan hybrid, are capable of running a free and 
fair election.
    The problem was not that those institutions could not run 
the election. It is just that there was so much fraud and a 
lack of independence in that commission. So I think we could do 
a better job with the institutions that are in place, which 
frankly would also provide for a greater degree of Afghan 
leadership, which is very important for people to see.
    Mr. Rohrabacher. But we should insist, and I know that I am 
running out of time, Mr. Chairman, but we should insist that 
there at least be a runoff election, and that we just don't 
accept this result because it would--frankly it would provide 
an illegitimate government as an alternative to the radical 
Islam and the persona of the Taliban.
    And that is not a proper choice for the situation in 
Afghanistan right now, for the people of Afghanistan. Thank 
you, Mr. Chairman.
    Mr. Ackerman. Thank you. Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman, and thank you for 
holding this hearing. Welcome to the panel. I will ask this 
question of the panelists, and maybe starting with you, Glenn, 
and it is good to see you again.
    In your review of observing the elections, those of you who 
were there, did Karzai in fact win this election, the 
allegations of fraud notwithstanding?
    Mr. Cowan. Thank you, Congressman. We probably will never 
know. I think the process by which these votes have been 
counted, and the auditing process now taking place, is not a 
legitimate way to have done this, and I do not think we will 
ever know what the real votes cast would have produced.
    He certainly could have come close to winning, but whether 
or not he did in any event is unclear, and will probably never 
be a matter of fact.
    Mr. Craner. We at IRI did some pre-election polling on this 
question. These are all provisional results that we are getting 
from the Election Commission. We had predicted from various 
polls that Mr. Abdullah would get around 28 percent. We were 
within 2.3 percent in our polling.
    We had said that Mr. Bashardost would get 9.2, and we were 
within 0.8 percent of the provisional results. We had said that 
Mr. Ghani--the number that he got, I am sorry, those were all 
the numbers that they got in provisional results, 2.7, and we 
were 3.30.
    With Mr. Karzai, we were 10 points off, with 54 percent. So 
take those results, and as Glenn said, we will probably never 
know, but I think the point that some of us are making is that 
this is not our fate to accept these elections.
    We have a say here in whether there is another round of 
elections, and that say goes to these issues that Peter 
Galbraith has been talking about how they should be conducted.
    Mr. Connolly. Well, I am glad that you bring that up. I 
worked with Peter Galbraith for 10 years in the Senate Foreign 
Relations Committee. He is our former Ambassador to Croatia.
    We just had published reports today that he has been 
terminated in his post with the United Nations because of a 
dispute that he had with the chief U.N. official who was 
responsible for observing these elections. What is your take on 
that?
    Mr. Craner. I have not seen Peter's letter that was in 
today's New York Times. I would have to look at that. But I 
think as a general matter that Peter was sticking up the most 
rigorous possible examination of the selection, and that is 
what I mean by saying that it is not our fate to accept this 
first round. It is within our control to insist that it be 
better done.
    Mr. Connolly. And if I could clarify my question, Mr. 
Craner. That is exactly what I am getting at, but it looks like 
with that termination, the United Nations is prepared 
unfortunately perhaps to do just that. Namely, to certify an 
election that is alleged to have been achieved by widespread 
fraud.
    Mr. Craner. Again, our fate is not decided by the United 
Nations, nor is the Afghan people's fate. I think we as a 
government have a right to insist that the U.N., which is 
renown for running elections in the world, and ran the 2004 and 
2005 Afghan elections, that they would do a decent job here.
    Again, if we don't get this issue straight of the 
legitimacy of the government, it is probably not worth sending 
another 40,000 troops, or even continuing there. It really 
needs to be fixed.
    Mr. Connolly. Isn't, Mr. Manikas, one of the problems--I 
mean, I am very familiar, and certainly a fan of the work of 
NDI, but perhaps one of the--and I could throw out a slight 
criticism of the NDI approach.
    On elections, it is often a top-down approach. It is a 
national election, often sometimes irrespective of the fact is 
that local governments have not in fact built up a democratic 
tradition.
    And it seems to me that generally democracy is built from 
the bottom up, and not the top down, and did we not just 
witness that in these elections in Afghanistan? We are trying 
to impose or help create a structure that has in fact never 
existed in Afghanistan.
    And the local tribal culture may involve democratic 
elements, but certainly in towns and villages across 
Afghanistan, they don't have such a culture or tradition.
    Mr. Manikas. I do not think that is the case. I think it is 
the case that every poll that has been done over the past 7 or 
8 years has shown an overwhelming support among the Afghan 
people for a democratic process.
    There are institutions that are created by Afghans, not by 
the international community. There are things that have grown 
out of the Bonn process, which the Afghans, I think, have 
enthusiastically endorsed. I don't think this is a matter of 
institutions or an electoral process being imposed on Afghans.
    Mr. Connolly. Mr. Chairman, my time is up, but I sure wish 
I had time to challenge that statement.
    Mr. Ackerman. The chair is contemplating a possible 
truncated second round depending on how this goes. Mr. McMahon.
    Mr. McMahon. Thank you, Mr. Chairman, and thank you for 
convening this very relevant and interesting hearing, and to 
all the witnesses, thank you for coming today. Mr. Craner, you 
indicated that it is within our power to compel a further 
election or a runoff if you will.
    Can you just walk me through that process, because I think 
what I sat here and learned is that I think that everybody in 
this room agrees that there were high irregularities in the 
election.
    That following the best interests of the Afghan people and 
the American people, and the world, that Mr. Karzai not remain 
in that position. But coming from local politics in New York, 
it is not the first time that I looked at the results of the 
election, I was not happy with it.
    But through the process how do we--I think we all see the 
same goal here, but tell me how we get there.
    Mr. Craner. Well, there was an Independent Election 
Commission, and unusually there was a separate Election 
Complaints Commission. You usually don't have that. The two are 
usually together.
    So clearly there was an understanding that there was going 
to be a problem, or there might be a problem here. The Election 
Complaints Commission has insisted on being quite rigorous 
throughout the process.
    They have--and this again gets to the dispute between the 
head of the mission and Mr. Galbraith about how rigorous the 
Election Complaints Commission is going to be in looking at 
these results.
    I do not think given our stake in Afghanistan, but also 
given our presence there, that we are the main--the United 
States is the main presence there, that it is out of the 
question for the United States to say we think this is an 
important issue, and we think it should be decided in a 
particular way, that it should be looked at rigorously.
    Mr. McMahon. But who has the power to impose that decision? 
Does that Commission have the procedural power to say----
    Mr. Craner. Yes.
    Mr. McMahon [continuing]. No, Afghan, you are a free 
nation, and we are telling you----
    Mr. Craner. Yes.
    Mr. Connolly [continuing]. To do a new election?
    Mr. Craner. The final results cannot be validated until the 
Election Complaints Commission has signed off on them. The 
issue has been what small portion of the vote is the Election 
Complaints Commission going to be allowed to look at to 
determine that.
    It is partly driven by a desire to get this over with. It 
is partly driven by a desire to get this over with quickly so 
that if there was going to be a second round, it could have 
been held before the winter.
    If you open up other options, if you say it will be okay if 
we have a second round in the springtime because this is a 
really important election, then the Election Complaints 
Commission can be freed up to do the work that it should be 
doing.
    Mr. McMahon. But can't the Karzai government then declare 
legitimacy and refuse to cooperate? You were saying that we 
were fairly elected, and now you are trying to actually take 
away the independent votes of the people?
    I am not for that. I am just curious, because we are sort 
of in the room here far, far away, saying what should happen. I 
just am not seeing the process that would bring that about.
    Mr. Craner. If there were a popular perception in 
Afghanistan that this had been a very clean election, I think 
you would be able to do that. I think the popular perception in 
Afghanistan is probably very much like it is here, which is 
that this was a very bad election.
    So I think for him to say, well, this Election Complaints 
Commission really doesn't have any standing, and the Afghan 
people have made their wishes known, but the Afghan people have 
not made their wishes known through this election process.
    Mr. McMahon. I understand. I agree, but I just am not clear 
how procedurally you make that happen. Mr. Thier.
    Mr. Thier. Well, let me say that I think that you are right 
to point out officially there is a gray area, and it would be 
very difficult, because ultimately it is the Independent 
Election Commission that will certify the results.
    I think what we have not dealt with effectively over the 
last number of years, and certainly it is pertinent right now, 
is that the United States pays for most of the Afghan 
Government budget.
    We provide the security, and we paid for most of this 
election, and ultimately we have to decide where--not only 
where our principles lie, but where our future lies in 
Afghanistan.
    And if we determine, as I think virtually every witness 
here has said, that we cannot succeed in Afghanistan over the 
next 5 years with the incredible pall of illegitimacy that this 
election has left.
    Then we have to get down to brass tacks, and that means 
that we can make very serious demands, and it is not just us. 
We are there with 41 other nations. I don't believe that 
President Karzai, with the lack of popular support for the 
legitimacy of the election, and the lack of popular will 
amongst the international community that pays all the bills, 
can stand up against that credibly.
    Mr. McMahon. Well, I understand that it is more the weight 
of our authority, as opposed to some--yes, Dr. Fair?
    Ms. Fair. Well, just one quick point. In some sense with 
the announcement that we have already acknowledged that Karzai, 
either through the force of a recount, or through the basis of 
the previous tallies, is going to be the President, we have 
already undercut in some measure those very important domestic 
institutions like the ECC.
    I would actually turn the question around. How can the ECC 
come to the determination that a runoff is appropriate when 
major international stakeholders have already basically said 
that we are going to be acknowledging Karzai as the continued 
President.
    Mr. McMahon. Thank you. I will adopt that question in the 
next found. Thank you, Dr. Fair.
    Mr. Ackerman. Mr. Costa.
    Mr. Costa. Thank you, Mr. Chairman. Some of us, or I guess 
all of us have been to Afghanistan a number of times, and you 
look at the flip side of comparison analysis with Afghanistan 
and Iraq, and you have got the majority of people, 70 percent 
or more, live in rural areas, versus Iraq, that live in urban 
areas.
    You have got literacy rates where I think still 80 percent 
or more of the population of Afghanistan are illiterate. You 
have got a life expectancy that is--I mean, the slog here, the 
investment that you clearly, Mr. Thier, noted that we have made 
thus far, and the one that we are going to have to continue to 
make to be successful, I think the American people truly need 
to understand the significance of the financial commitment, as 
well as the manpower, and the lives that are out there.
    Could you give me an assessment of how long you think it 
will take--we have been there 8 years--to straighten this out 
given the lack of focus that has been placed there to turn this 
around, the Plan B sort of, Dr. Fair, that you noted, and what 
that Plan B is, because it can't be just rearranging Plan A?
    Mr. Thier. I think that it is critical to note that 
although we have been there for 8 years, we have not been 
trying for 8 years to accomplish many of these hopeful 
objections.
    Mr. Costa. Clearly.
    Mr. Thier. And so I don't know that the 8 years is 
necessarily a good metric, because I think that it is a scary 
number. I believe that going forward that essentially a 5-year 
plan of transition, where we focus very heavily on developing 
Afghan capacities over the next 2 years----
    Mr. Costa. Using smart power, combined with our military 
force?
    Mr. Thier. Exactly. I still believe--I lived there 4 years 
of the civil war in Afghanistan in the 1990s, and things can 
get a whole lot worse. The Afghan people are very resilient, 
and what exists in a lot of the country right now, with the 
exception of the east and the south, is relatively positive to 
where that country has been for the last 30 years. So for 
those----
    Mr. Costa. When you talk about the east and the west like 
that, for what percentage of the population are you saying 
things are relatively positive?
    Mr. Thier. I think that for about 70 percent of the 
population, there are certainly threats of insecurity, but they 
are not living in armed conflict. They are living in an 
environment where there are opportunities to improve their lot.
    And many people have. Economic growth has been considerable 
over the last 8 years, and so it is a question of being able to 
balance this positive growth with the downward trends that we 
have seen over the last 3 to 4 years.
    One of the most important things about this whole debate, I 
believe, is that while the national elections are important, 
ultimately politics, society, and economy in Afghanistan are 
local, and we need to pay a lot more attention than we have to 
dealing with things at a local level than the national level.
    Mr. Costa. Well, with 70 percent of the people living in 
rural areas, that is a more difficult challenge.
    Mr. Thier. It is a more difficult challenge, but at the 
same time those people have survived through decades of 
conflict, and it is not as though they have just lived in 
chaos.
    They have governed themselves, and they have fed 
themselves, and there is a great well of capacity among the 
Afghan people to persevere.
    Mr. Costa. Dr. Fair, Plan B?
    Ms. Fair. Yes, I have a really different view. I mean, I 
spent my career looking at the South Asia region, and so I am 
always thinking about tradeoffs. What we do in Country X, is 
that what we need to do in Country Y.
    The problem that we have in Afghanistan is that the 
counterinsurgency lurch is very clear. Locals win 
counterinsurgency, not foreigners. Our Government has not 
stepped up to the plate.
    They have not been able to support our international 
resources on something very basic as training police. So by 
putting so much United States resources into counterinsurgency, 
as opposed to counterterrorism, we are actually in a really 
ironic situation.
    I think that most people would agree that we have far more 
significant terrorist threat, as well as the threat of nuclear 
proliferation, residing in Pakistan. But because we want to 
send more troops to Afghanistan, we need Pakistan ever more as 
a logistical supply route.
    So it is very ironic that we are trying to engage a 
counterinsurgency battle on behalf of the Afghans, which we 
can't win realistically speaking, and because of this 
commitment, we are unable to put needed pressure on Pakistan to 
do what it needs to do to diminish what I would argue is even a 
greater terrorist threat, and of course the enduring nuclear 
proliferation threat resides there as well.
    Mr. Costa. In recent years--and quickly my last question, 
and I don't know if you can get a head nodding agreement among 
all of you, but President Karzai, who many of us have met, has 
been referred to in some cases as not much more than the Mayor 
of Kabul.
    Would you concur all of you that his ability to reach out 
to the provinces and to have a truly national government is 
still that limited?
    Ms. Fair. He can reach out, but not in ways that are 
necessarily productive.
    Mr. Costa. Well, that is part of the problem. Is 
everybody's head nodding on that? Thank you, Mr. Chairman.
    Mr. Ackerman. Thank you. Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you very much for 
repeatedly providing us with timely hearings and provide great 
consternation. Let me just offer my thoughts of a country that 
I went into shortly after the--probably in the spring of 2002, 
I recall.
    And I think at that time it was Chairman Karzai and the 
palace in Kabul, and it was dark, and riddled with bullets, and 
so I saw it in its last state if you will. Certainly there have 
been steps toward progress in Afghanistan that I think we 
should give credit to.
    In talking to Afghan parliamentarians, there is still a 
concern about the treatment of women and girls. We have made 
some strides, and then we have fallen back. I would just point 
that out in terms of governance and where we are, and how they 
relate to these elections.
    Let me pose these questions. I am not sure, Mr. Craner, but 
I was coming in as you were saying--and I hope I didn't 
misinterpret, but I was coming into the room, and it seems you 
said something about not sending troops.
    You can like shake your head if I am incorrect, but I am 
going to get a question to you. But did I hear you when I was 
coming in correctly?
    All right. I am going to pose the question, and pose the 
question to Ms. Fair, and I appreciate the other witnesses, 
too, and Mr. Thier. And I would just go down the line and 
answer the question.
    One, I was speaking to some international press, and I was 
speaking in an off the record conversation also to a British 
parliamentarian, who said that the United States has gone on 
record internationally that we want our man to win.
    If I missed it in the domestic press, somebody needs to let 
me know, and that would be Karzai. We made our point when I 
thought we were trying to stand back and let the process go 
forward.
    Second, I am going to weave this into this question of the 
dilemma that is facing the administration on surging up or 
looking at some other options. My understanding of the defeat 
of the Russians was the nationalistic posture that Afghans 
take, and they don't let up.
    So my question is how do we think we are going to change 
that? Do we not need to find--and let this not be humorous, and 
let me qualify it so that it is not manipulated and abused 
across the world of dialogue--but can we find the good Taliban? 
Don't they exist? Are they not an underpinning--are there not 
some people who are Taliban? We have gotten that name, and so 
maybe it should be a different name, and you can help me out.
    To work on this thing called counterterrorism, which I 
think is a valid point, I need to understand it. But I think it 
is a valid point. You can work on the bad guys. I mean, I think 
we should work on the bad guys.
    But I don't know if a surge and the whole idea of presence 
with NATO dropping down is going to work; and lastly, if this 
gets settled is Karzai the gentleman who could pull people 
together if this election could be legitimized? Mr. Craner.
    Mr. Craner. On your first question, 2 days ago apparently 
in New York, there was a meeting reported on by the New York 
Times that indicated that we had basically said to Karzai that 
you have won, even though the election process was not quite 
done.
    Ms. Jackson Lee. Thank you. I will look that article up.
    Mr. Craner. And the Soviets versus us question, clearly you 
have to--you may not be able to always get to the leaders of a 
counterinsurgency, but you have to starve them of their foot 
troops, and if you have a counterinsurgency strategy with a 
legitimate government, you can do this.
    Is Karzai capable of pulling people together? As my 
colleague noted, yes, but not the right people.
    Ms. Jackson Lee. All right. Thank you. Dr. Fair.
    Ms. Fair. The issue of our man actually began circa March, 
when everyone agreed that the election would be postponed, and 
because of the unfortunate consequence of the international 
community being forced to support continuity of government as 
the peak insurgency season began, and everyone read that as 
being tantamount to support for the incumbent.
    So there was some realities about the politics and the 
needs for the insurgency. I believe very strongly that we need 
to remember that there are two military missions in Afghanistan 
right now.
    One is the counterinsurgency mission, which targets the 
Taliban.
    Ms. Jackson Lee. Right.
    Ms. Fair. And the second is the counterterrorism mission, 
which brought us into Afghanistan, which focuses upon al-Qaeda. 
There are two very separate missions that remain separate 
today.
    Going to the point about flipping the Taliban, I think that 
even the term Taliban is not terribly helpful. Many of the 
fighters that are currently associated with the Taliban 
infrastructure, they are opportunists. They are entrepreneurs 
of violence, and yet I think they can be brought into a system, 
and that is how insurgencies end, a politicalization of those 
combatants that can be politicalized.
    Mr. Ackerman. Thank you. The chair will attempt to have a 
second round. The found will be limited with everybody's 
consent to 3 minutes per member. The chair will go last in case 
we run out of time.
    I remind you that 3 minutes means if your question is 2 
minutes and 10 seconds, each panelist will have 10 seconds 
left. Mr. Connolly.
    Mr. Connolly. I thank the chair. I certainly----
    Mr. Ackerman. I am sorry, Mr. Rohrabacher, or would you 
like to go and bat cleanup?
    Mr. Connolly. I certainly would defer to my colleague if he 
wishes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. We are 
in a war right now with radical Islam, and the radical 
Islamists coalition declared war on us. They attacked us and 
slaughtered 3,000 of our people.
    What happens in Afghanistan has a lot to do with the 
outcome of that war, and I know when I was a young man, and I 
had spent some time in Vietnam doing--I was not in the 
military, but doing some other work there.
    And I came back and talked to my father, who had fought in 
the Korean War, and had actually pulled the first DC-3 into the 
Pusan perimeter, and I was telling him about how concerned I 
was about Vietnam, and how I felt the dynamics would mean that 
our sacrifice would mean nothing.
    And he told me that it was much worse in Korea, and he said 
look at it today. At least in Korea, they have a democratic 
government on our side now, et cetera, and what would it be 
like if we had not stayed in Korea, or we had not won in Korea, 
or at least prevented them from being taken over by the 
communists.
    It would have been a whole different world, and in fact the 
communist's surge throughout the world might have succeeded, 
and it might be a totally different world today. Well, I 
believe that unless we succeed in Afghanistan, it will be a 
totally different world.
    But it doesn't necessarily mean that it is all based on our 
military forces, and sending people like my father when he was 
a young man into Korea to do their fighting. It seems to me 
that as in the Cold War, the outcome was the fact that we did 
make stands, but also that we allied ourselves with people like 
the Afghan people.
    In fact, we allied ourselves with the Afghan people who 
helped defeat the Soviet empire, and today unfortunately, Mr. 
Chairman, it seems to me that we have tried to ally ourselves 
with an elite in Afghanistan, and create some sort of 
alternative elite in Afghanistan, rather than going to the 
people themselves and allying ourselves with what is or what I 
consider people of high integrity and courage, who are open to 
a friendship with the United States.
    If we permit this election result to go unchallenged, and 
we don't have a runoff, I think that it will be an insult to 
the people of Afghanistan. It will undermine our efforts to 
actually succeed there, because our success depends on an 
alliance with the people there, and not with a coalition of 
crooks.
    And an alliance with a coalition of crooks that run the 
central government. So, with that said, I have appreciated the 
testimony today, and I again would ask my colleagues if they 
would like to join me in a resolution, which I will be 
submitting today, calling for at least the runoff election.
    And if any of us are considering supporting 35,000 
additional troops for Afghanistan, we should go on record 
demanding that the people of Afghanistan not be insulted with a 
fraudulent election.
    At least pulling that out in a little way by offering a 
runoff to the people that would be run hopefully in a more fair 
and honest manner. Thank you, Mr. Chairman.
    Mr. Ackerman. Thank you. Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. I want to go back to 
my truncated conversation with Mr. Manikas. You were citing 
polls that overwhelmingly the Afghan people favor free 
elections.
    And you seemed to take issue with the fact that there was--
a minor assertion--that there was not really a tradition of 
democratic elections, certainly at the national level in 
Afghanistan.
    I want to give you a chance to comment on both, because one 
wonders about how accurate polling would be in a country like 
Afghanistan, with 80 percent illiteracy at least, with a sense 
of no nationhood.
    Most Afghans, if you ask them where they come from, they 
will cite their tribe, not Afghanistan. So the sense of 
nationalism in Afghanistan is very limited. I was there in 
February, and I can't remember a national election in 
Afghanistan that put in a relative free stable government, or 
even a free unstable government.
    So I would like you to have a chance to respond to that, 
but point number two, and to anyone else on the panel real 
quickly, even if we succeed in getting a runoff election, one 
of the concerns that I have got is that we are raising 
expectations that if we only got to a free election with that 
individual, who in fact really is elected, all will be well.
    And I am really worried about raising that expectation, 
because I just think it is just not true, and I think even with 
a freely elected government--relatively freely elected 
government--we have got a lot of trouble in Afghanistan, and 
elections sadly may not be the crux of the problem. Mr. 
Manikas.
    Mr. Manikas. I agree that polls are somewhat problematic. 
There has been though three different organizations--the Asia 
Foundation, the IRI, CSIS, here in Washington that have been 
doing polling, and have come up with pretty consistent results 
over the past 7 or 8 years.
    On the electoral process itself, I think the participation 
of a large number of Afghans, both back in 2004 and 2005, and 
this current election, demonstrates a commitment to the 
electoral process.
    In addition to the millions of people who voted in this 
election, there were over 40,000 Afghans who participated as 
candidates, as domestic election monitors, as polling 
officials, and all at personal expense and risk. I think those 
factors demonstrate a commitment to the institutions that they 
created.
    Mr. Craner. I think that everything that Peter said is 
right. I think what the Afghan people are not--I mean, nobody 
raised this issue of are the Afghan people ready for democracy 
in 2004 and 2005 when the elections were pretty well run.
    It has come about because there was a fraudulent election. 
But the fraud was not committed by the Afghan people. As Alex 
noted, it was 80 percent by the government. There were other 
people who committed fraud, but it was 80 percent by the 
government.
    I think what the Afghan people really want to see is 
something in between elections called democracy. That means 
that the state has an interest in their welfare, and they are 
not seeing that. I think that is the problem.
    Mr. Ackerman. Thank you. Ms. Jackson Lee.
    Ms. Jackson Lee. I am on a marathon. Mr. Craner, could you 
say again, no troops? I am just going quickly. Did you say no 
troops, or----
    Mr. Craner. I said it is difficult to make the case for 
troops unless you can sort out the selection.
    Ms. Jackson Lee. Right.
    Mr. Craner. In other words, this election is critical.
    Ms. Jackson Lee. Let me put on the record that I believe 
that we should have a legitimate runoff, but I will ask Mr. 
Thier, and Dr. Fair, again. Mr. Thier, I didn't get to you, and 
so I want to get an answer to this question.
    My point about--and my dear friend and I are probably on 
the same page. We have traveled to Afghanistan at different 
times. My point on nationalism is the idea that they will stand 
against an outside force, whether they are tribal or otherwise, 
and that I think was part of the defeat of the Russians.
    The question is whether there is any value for us to be 
there in that military point if we are not doing democracy and 
focusing on who we can negotiate with. So, Mr. Thier, if you 
would answer that about any value.
    Let us say the election gets a reelection, and we have some 
unity in the government. We talked about democracy. Get into 
this point about where we go next with this so-called 
democratic government.
    Dr. Fair, just help me again in distinguishing on your 
counterterrorism. What tools will you use for counterterrorism? 
Are you promoting counterterrorism over the insurgency fight? 
Dr. Thier, and Dr. Fair, I think I have time for both of you to 
answer quickly.
    Mr. Thier. Yes, I believe fully in the premise of your 
question about nationalism, but I think that the benefit for 
the United States is that fundamentally Afghan nationalism has 
been consonant with American goals since 2001.
    I believe that there are great and strong national 
traditions in Afghanistan, and I think that for the most part 
that they have been supportive. I think the talk of xenophobia, 
and a graveyard of enterprises, has largely fallen flat in 
Afghanistan.
    It is only--it is not that the Afghans fear the Judeo-
Christian armies of the United States taking over Afghanistan. 
It is that when they see what we have developed and what we 
have delivered with the Karzai government that they have grown 
skeptical. And so what they want from us----
    Ms. Jackson Lee. Can we win their hearts and minds without 
a surge of troops?
    Mr. Thier. I think that the question of troops to support 
what Mr. Craner said is less important than the question of how 
we deal with the fundamental premise of creating a responsible 
and legitimate civilian government. You could probably----
    Ms. Jackson Lee. I hear that. Thank you, Mr. Thier. Dr. 
Fair.
    Ms. Fair. The point of the counterterrorism issue actually 
feeds right off of this. So why we went into Afghanistan was 
because al-Qaeda----
    Ms. Jackson Lee. Absolutely.
    Ms. Fair. So the counterterrorism struggle focuses narrowly 
on al-Qaeda. They are largely localized in the Kunar Province, 
and of course----
    Ms. Jackson Lee. And what tools do we use?
    Ms. Fair. Special operators, another thing probably not----
    Ms. Jackson Lee. I understand that. Okay. Different from 
what we have with massive groups walking around.
    Ms. Fair. No, counterinsurgency is targeting the Taliban. 
The Taliban is created from goals from al-Qaeda.
    Ms. Jackson Lee. Right.
    Ms. Fair. Which was a national terrorist organization that 
went to harm us or our allies everywhere if possible. The 
Taliban largely is focused on domestic issues, largely focusing 
on undermining the government in Kabul.
    So to win the counterinsurgency affair, that is not for us 
to win. That is for the Afghans to win. That requires the 
Afghans to take a handle on this governance issue.
    We can send in trainers, and we can train the police. We 
can train the military, but if this does not happen in concert 
with the Ministry of the Interior reform, and Ministry of 
Justice reform, the Afghans will not win the counterinsurgency 
struggle against the Taliban.
    Going back to your other point, most insurgencies do end 
with some political resolution. These are not al-Qaeda in Iraq 
where everyone was foreign. It is not as if they came back. 
They never left.
    So there will ultimately have to be some resolution of 
that, and that goes back again to the credibility of this 
government in Kabul. How can an uncredible government deal with 
the insurgency in political terms?
    Ms. Jackson Lee. Mr. Chairman, thank you very much.
    Mr. Ackerman. Thank you. My final issue that I would like 
to bring up. It seems historically that when we become involved 
with uncredible as you call them regimes, and the people remedy 
that situation, regardless of how long it might take them, that 
our alliance with that regime that then gets overturned does 
not sit well with the people who are demanding justice.
    And I could cite examples from Cuba, to the Shah of Iran, 
and everybody else before and after, and in between. If we 
continue to back, assuming that whatever insistence we might 
have, and the final disposition of Mr. Rohrabacher's suggestion 
of insisting on a runoff that they may not accept, and we 
continue to send troops, do we look like participants in a sham 
government that is not legitimate?
    Do we look like enablers of that process of election 
stealing, and are we no longer welcomed in a region of the 
world that we see presently as critical to some of our 
concerns?
    Mr. Cowan. Mr. Chairman, I think that 5 years ago, we 
acceded to a Karzai regime demand that they not have true 
separation powers in their government, and we permitted a 
single non-transferable votes system for the election of their 
legislature, which stripped that body of the ability to be 
managed and run by political parties.
    So there are no political parties in the country, and they 
do not act as a check against unbridled executive power. That 
is one of the central problems in the country, in companion 
with the fact that we did not----
    Mr. Ackerman. Are we the bad guys by participating and 
propping up an illegitimate government?
    Mr. Craner. I think at this point that we need to call on a 
change in the way that the legislature is elected so that we 
can have checks in that government, yes.
    Mr. Ackerman. Thank you. Mr. Thier, how are we viewed if 
our pleas, if we make them, are ignored for a runoff and 
legitimate election, a new election, and we continue to be 
supportive or cooperative with the regime, which is really them 
being cooperative with us?
    Mr. Thier. Well, I think it comes down to ultimately how 
the next year plays out. I think that this election crisis will 
flow into the question of how we effectively deal with the 
accountability of the government.
    And again it is not the election that precipitated this 
crisis. It is the fact that the government has not performed 
credibly or legitimately. I think that there are steps that 
could be taken, regardless of who becomes President, that would 
improve the performance of the Afghan Government, and would 
improve people's perceptions of us and the Afghan Government.
    And so it goes beyond the elections. It is these other 
things about dealing with the cultural of impunity that we need 
to address.
    Mr. Ackerman. Mr. Manikas.
    Mr. Manikas. I think what we say about the process will 
also matter. It is not just support for an illegitimate 
government, but how honest we are in describing what actually 
occurred.
    Mr. Ackerman. Dr. Fair.
    Ms. Fair. I agree with everything that my colleagues have 
said, and I would like to add the addendum that we also have to 
be introspective and look at the places at which we knew that 
the election was going down a pre-cooked path, and we actually 
subsidized, funded, or supported those mechanisms, or at a 
minimum acquiesced to them, and some of these mechanisms were 
clearly evidenced as early as May 2008.
    Mr. Ackerman. Mr. Craner.
    Mr. Craner. I would say the answer to our question is yes, 
but it is within our power to change that.
    Mr. Ackerman. Thank you. Mr. Ellison, do you have a 
question, or two, or three?
    Mr. Ellison. Yes, sir, Mr. Chairman. Thank you.
    Mr. Ackerman. Well, I would yield the chair to you, because 
I have to be in one of those places that I can't tell you 
about, and learned things that I never heard. So you can yield 
yourself the time. I believe we are on a 3-minute regime right 
now.
    Mr. Ellison [presiding]. I will yield myself 3 minutes. Let 
me begin with you, Dr. Fair. Was there any evidence that you 
have seen that suggested to you that perhaps our policy, either 
explicit or implicit, was that we kind of thought of Hamad 
Karzai as our guy, and therefore, we are not as judicious as we 
could have been as we saw these election irregularities 
developing, and then culminating in what we now are talking 
about today?
    Ms. Fair. Yes.
    Mr. Ellison. Could you elaborate on that?
    Ms. Fair. Yes, absolutely. In my various trips to 
Afghanistan, it really was not until March 2009 on this year 
where I actually began hearing very serious rumblings amongst 
the international community actors there in Kabul, that maybe 
the worst thing for the insurgency would be 5 more years of 
Karzai.
    But at that point, they had already acquiesced to 
postponing the election, and that meant that everyone had to 
rally around continuity of governance, which of course Karzai 
took to mean continuity of the incumbent governance.
    And so that sort of put into play a very difficult 
structural situation that no one could really extricate itself, 
from which we could not extricate ourselves. When Ambassador 
Eikenberry made a very visible effort to meet the other 
contestants that was then construed as the United States trying 
to find another alternative.
    But I look at the Afghan policies as being very similar to 
the Pakistan policies, and that is that we are always trying to 
find our guy to execute our interests in a relationship that we 
say is transactional, but in fact we never get the returns to 
the investment from those transactions.
    Mr. Ellison. In your view, would Dr. Abilis, assuming that 
he prevailed in the election, and it looks as if so far he 
hasn't, if he did, would that necessarily be a bad thing for 
the United States, and our stated goals of protecting ourselves 
from al-Qaeda, and other transnational terrorists that might 
gather ground in Afghanistan?
    Ms. Fair. Well, again, I really do like to make a 
distinction between the counterinsurgency, which is dealing 
with the Taliban, and the counterterrorism campaign, which 
deals with al-Qaeda.
    I believe that you can actually secure our goals against 
al-Qaeda, irrespective to some measure to what happens with the 
counterinsurgency. Had there been a more credible outcome in 
this electoral process, irrespective of who wins, it would have 
facilitated the prospects for the counterinsurgency campaign, 
because it would have added a grain of credibility to the 
government.
    Had Karzai not won, or had there been a runoff, it would 
have been an important signal to Karzai that he is not our man, 
and that in fact he is answerable to his constituencies, and he 
has to perform.
    So it is counter-factual that in fact we don't have a 
credible electoral outcome. We don't have a Presidential 
candidate. And finally everyone talks about the Presidential 
candidate. Remember, these are provincial council elections as 
well.
    And the Taliban, there is a lot of evidence that they were 
floating proxies, and that they were keen about the outcomes of 
the provincial council elections. So let us also remember that 
there were multiple elections taking place, and I would argue 
that the provincial council elections are just as important.
    Mr. Ellison. I am out of time, and I will yield now 3 
minutes to Congressman Rohrabacher.
    Mr. Rohrabacher. Thank you very much. Just some final 
thoughts. First of all, a thank you to the panel, and all of 
you have given us food for thought. We face some really 
important decisions about what our policy is going to be in 
Afghanistan.
    I am reminded that years ago, like 25 years ago, I was 
actually walking into Afghanistan, walking through Afghanistan, 
with a Massoud combat unit to the City of Jalalabad, which was 
then under seize by Massoud forces.
    And I had a beard and the whole business then, and a young 
man came running up from the back of our little band of 
insurgents, and came to me and said that I understand that you 
are an American, and I said yes.
    And he spoke English very well. A 16- or 17-year-old boy, 
and he said, ``I know that you are involved in politics,'' and 
I said, ``Yes. Yes, I am.'' And he said, ``Are you a donkey or 
an elephant?'' And I said, ``Well, I am an elephant.'' And he 
said, ``I thought you were.''
    Now, here is a guy, a young person in Afghanistan, and he 
had an AK-47 over his shoulder, marching into a battle on the 
other side of the world, and he knew about our political 
system.
    He knew about us, and it was an amazing thing to me, and I 
often wondered--and that was 20 or 25 years ago. He must be 
near 40 years old now. We have to keep faith with that young 
man.
    I don't know if he ever survived the war or not, but many 
of them like him marched off and had incredible courage, and 
changed the course of history with what they did.
    And I think that our major challenge right now is to keep 
the faith with people like that, that young man with such 
incredible courage and integrity, and knowledge, and a longing 
to make his country better, and allying with us in order to do 
so.
    I don't know if he survived or not, but I do know that 
Abdul Hawk did not survive after 9/11. He went in to try to 
reorganize, and tried to help his people fight off this radical 
Islamic element.
    I know that Commander Massoud, both of whom I know were 
close friends of mine--Commander Massoud, of course, was 
murdered in the days right before 9/11. Some of us believe that 
was part of the whole 9/11 plan of the Taliban, and al-Qaeda, 
to kill Commander Massoud, to make sure that the United States 
did not have a method of retaliating against them.
    So that would be the equivalent of George Washington and 
Thomas Jefferson being killed during the American Revolution. 
Now what would that have done to the United States after the 
war, after our revolution, and how would it have impeded our 
progress?
    And so there is hardship to be overcome right now that has 
been brought upon us by the circumstances of history, and the 
loss of leadership. We must do our best to pay back this debt 
to the people of Afghanistan, and I believe our future, the 
future of the world that we will create, will be determined on 
how we handle this.
    And whether or not we keep faith with those people, like 
that young man who understood us and wanted a free country, and 
wanted a country where his people would grow better, or whether 
or not we jus succumb to making coalitions with elites, even if 
they are crooked elites, and run crooked elections.
    I don't think that is keeping faith with those people, and 
that will not serve us in the years ahead. So with that said, 
thank you, Mr. Chairman, and thank you all for testifying 
today.
    Mr. Ellison. And if the gentleman would yield, I have just 
one quick question that I would like to ask, just one fast one, 
and I would like to ask it to the panel for a quick answer.
    So if the outcome of this thing is that--well, let me ask 
it this way. Whether we have a runoff election--or should we 
have a runoff election? That is my question. Not we. What am I 
talking about. They. Should they have a runoff election?
    Mr. Cowan. We will know in the next couple of days whether 
or not there will be a runoff. I think a runoff would be one 
way of adding some legitimacy to this process, but it is not at 
all likely that such a runoff in and of itself is sufficient to 
give us a legitimate outcome.
    Mr. Thier. I believe that a runoff election is the best of 
a series of problematic options for dealing with the crisis 
that has been created by this election.
    Mr. Manikas. A runoff is the best option to restore 
legitimacy to the process.
    Ms. Fair. Agreed. My only concern is that some of the 
issues that were present in the election will remain present in 
the election, namely the security issues, the logistical 
issues, the not completely independent nature of the IEC. So 
some of the same institutional problems will not be erased in 
the course of a runoff.
    Mr. Craner. My answer is, yes, it would help, and I would 
say that it is not going to hurt things at all if it is in the 
springtime, and it will enable us to fix some of those 
problems.
    Mr. Ellison. With that, we will thank the panel, and this 
hearing will conclude.
    [Whereupon, at 11:08 a.m., the subcommittee hearing was 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
Prepared Statement of the Honorable Dana Rohrabacher, a Representative 
                in Congress from the State of California

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
